  Review of the Office of Postsecondary Education’s Actions
   to Address Talent Search and Educational Opportunity
     Centers Grantees That Did Not Serve the Number of
   Participants They Were Funded to Serve in Fiscal Years
                           2003-07



                        FINAL INSPECTION REPORT




                                 ED-OIG/I13I0007
                                  September 2009




Our mission is to promote the                      U.S. Department of Education
efficiency, effectiveness, and                     Office of Inspector General
integrity of the Department’s                      Washington, D.C.
programs and operations.
    Statements that managerial practices need improvements, as well as other
  conclusions and recommendations in this report, represent the opinions of the
 Office of Inspector General. Determinations of corrective action to be taken will
          be made by the appropriate Department of Education officials.


   In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports
issued by the Office of Inspector General are available to members of the press and
     general public to the extent information contained therein is not subject to
                               exemptions in the Act.
                                     UNITED STATES DEPARTMENT OF EDUCATION
                                                          OFFICE OF INSPECTOR GENERAL

                                                                                                             Evaluation and Inspection

                                                                                      September 30, 2009
Memorandum
TO:                  Daniel T. Madzelan
                     Delegated the Authority to Perform the Functions and Duties of the
                     Assistant Secretary for Postsecondary Education

FROM:                Wanda A. Scott /s/
                     Assistant Inspector General
                     Evaluation, Inspection, and Management Services

SUBJECT:             Final Inspection Report
                     Review of the Office of Postsecondary Education’s Actions to Address Talent
                     Search and Educational Opportunity Centers Grantees That Did Not Serve the
                     Number of Participants They Were Funded to Serve in Fiscal Years 2003-07
                     Control Number ED-OIG/I13I0007

Attached is the final inspection report of our Review of the Office of Postsecondary Education’s
Actions to Address Talent Search and Educational Opportunity Centers Grantees That Did Not
Serve the Number of Participants They Were Funded to Serve in Fiscal Years 2003-07. We
received your comments to our draft report on August 6, 2009. A copy of your response to the
draft report in its entirety is attached.

Corrective actions proposed (resolution phase) and implemented (closure phase) will be
monitored and tracked through the Department's Audit Accountability and Resolution Tracking
System (AARTS). Department Policy requires that you develop a proposed corrective action
plan for our review in the automated system within 30 days of the issuance of this report. The
corrective action plan should set forth the specific action items, and targeted completion dates,
necessary to implement final corrective actions on the findings and recommendations contained
in this final inspection report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the reports that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you or your staff have any
questions, please contact W. Christian Vierling, Director, Evaluation and Inspection Services at
202-245-6964.

Enclosure

 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
                                            TABLE OF CONTENTS

                                                                                                                             Page

EXECUTIVE SUMMARY ....................................................................................................... 1

BACKGROUND ....................................................................................................................... 4

INSPECTION RESULTS ......................................................................................................... 6

   FINDING – OPE Did Not Take Appropriate Action to Address Talent
             Search and EOC Grantees that Did Not Serve the Number of
             Participants They Were Funded to Serve in Fiscal Years
             2003-07 ........................................................................................................... 6

                        Issue No. 1         TRIO Management Did Not Have a Well-
                                            Defined, Transparent Process for Reviewing
                                            Grantee Performance .............................................................7

                        Issue No. 2         TRIO Management Did Not Appropriately
                                            Oversee Program Specialists’ Work ....................................10

                        Issue No. 3         TRIO Management Did Not Implement a
                                            Process That Appropriately Held Grantees
                                            Accountable for Not Serving the Number of
                                            Participants They Were Funded to Serve ............................13

DEPARTMENT COMMENTS .............................................................................................. 19

OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................. 31
Final Report
ED-OIG/I13I0007                                                                                       Page 1 of 42



                                      EXECUTIVE SUMMARY


The objective of our inspection was to determine whether the Office of Postsecondary Education
(OPE) took appropriate action to address Talent Search and Educational Opportunity Centers
(EOC) grantees that did not serve the number of participants they were funded to serve in fiscal
years (FY) 2003-07. We found that OPE did not take appropriate action to address Talent
Search and EOC grantees that did not serve the number of participants they were funded to serve
in FY 2003-07.

In response to our draft report, OPE did not concur with our recommendation to hold all grantees
accountable for not serving the number of participants they were funded to serve because OPE
interpreted our recommendation as a requirement to assess a financial penalty whenever a
grantee did not serve the number of participants it was funded to serve. OPE stated its general
practice has been to not impose financial penalties on grantees that do not meet their funded to
serve numbers. OPE did not provide any indication that it would change this practice. We do not
view reducing, discontinuing, or recovering funds from grantees that did not meet fundamental
performance requirements as a penalty.

It is TRIO management’s responsibility to establish policies on how it will determine substantial
progress and how it will hold grantees responsible. Although a program office can take other
non-financial actions to hold grantees accountable, if there are no financial consequences, the
effectiveness of these actions is minimized. 1 There is a performance point at which a financial
consequence is appropriate or continuation funding is not warranted. TRIO management has not
defined this point and does not hold grantees accountable for failing to serve the required number
of students.

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government state that a positive control environment is the foundation for all other standards.
Several key factors affect an organization’s control environment, including the organization’s
commitment to competence, delegation of authority and responsibility, and human capital
policies and practices.

We found that the TRIO program 2 has a weak control environment because of weaknesses
identified regarding the three factors. The weaknesses in TRIO’s control environment affected
TRIO management’s ability to hold grantees accountable for upholding the terms of their grant
agreements. Specifically, we found that

    •    TRIO management did not have a well-defined, transparent process for reviewing grantee
         performance. TRIO management:


1
  In our random sample of 28 Talent Search and 15 EOC grantees that did not meet their funded to serve number, we
found that TRIO staff did not take sufficient non-financial actions to hold grantees accountable for not meeting their
funded to serve numbers.
2
  OPE’s Higher Education Preparation and Support Service, or TRIO program, administers the Talent Search and
EOC programs.
Final Report
ED-OIG/I13I0007                                                                     Page 2 of 42

              Did not provide guidance to program specialists on the criteria that constitute
               substantial progress in 2007,
              Did not provide program specialists with a well-defined process for determining
               grantees’ substantial progress in 2007, and
              Did not require the documentation to ensure a transparent review process in 2007.

   •   TRIO management did not appropriately oversee program specialists’ work. TRIO
       management:
           Did not adequately review program specialists’ determinations of grantees’
             substantial progress,
           Did not ensure that program specialists adequately documented their grantee
             monitoring activities, and
           Did not ensure that performance agreements held program specialists responsible
             for appropriate substantial progress determinations.

As a result of TRIO’s weak control environment, TRIO management was unable to take
appropriate action to address Talent Search and EOC grantees that did not serve the number of
participants they were funded to serve in FY 2003-07. Specifically, we found that

   •   TRIO management did not implement a process that appropriately held grantees
       responsible for not serving the number of participants they were funded to serve. TRIO
       management:
            Did not discontinue or reduce continuation funding when grantees reported that
              they failed to meet the number of participants they were funded to serve,
            Did not establish appropriate benchmarks for grantees that were funded to serve
              greater than the regulatory minimum,
            Used different sets of data to evaluate grantees,
            Took inconsistent action and based funding decisions primarily on grantees’
              remaining funds at the end of a program year, and
            Did not take sufficient actions to address grantees that failed to meet the number
              of participants they were funded to serve.

We recommend that the Assistant Secretary for Postsecondary Education

   1. Define the criteria for substantial progress and develop guidance for program specialists
      to follow when making substantial progress determinations.

   2. Provide program specialists with a well-defined process for determining grantees’
      substantial progress.

   3. Ensure that the review process for evaluating grantee performance is transparent by
      requiring sufficient documentation.

   4. Adequately review program specialists’ substantial progress determinations to ensure
      accuracy, consistency, and appropriateness of decisions.
Final Report
ED-OIG/I13I0007                                                                     Page 3 of 42

   5. Ensure that program specialists adequately document their grantee monitoring activities
      in accordance with the Department of Education’s Handbook for the Discretionary Grant
      Process.

   6. Ensure that performance appraisals hold TRIO staff accountable for appropriately and
      accurately determining grantees’ substantial progress.

   7. Hold all grantees accountable for not serving the number of participants they were funded
      to serve.

   8. Use the same data to evaluate grantees’ substantial progress and prior experience to
      ensure that grantees are evaluated consistently.

   9. Use GAO’s Internal Control Management and Evaluation Tool to perform a complete
      evaluation of the TRIO program’s internal controls to determine if there are other internal
      control weaknesses and implement corrective action for any weaknesses identified.
Final Report
ED-OIG/I13I0007                                                                      Page 4 of 42



                                      BACKGROUND


The Talent Search and Educational Opportunity Centers (EOC) programs are two of the
programs administered by the Office of Postsecondary Education’s (OPE) Higher Education
Preparation and Support Service (TRIO). The Talent Search program provides academic, career,
and financial counseling to its participants from disadvantaged backgrounds and encourages
them to graduate from high school and continue on to a postsecondary institution. The EOC
program provides counseling and information on college admissions to qualified adults who
want to enter or continue a program of postsecondary education.

TRIO funds grantees to serve a specified number of participants for each year during a grant
period. The regulations at 34 C.F.R. § 643.32(b) specify that a Talent Search grantee shall serve
a minimum of 600 participants in each year, while the regulations at 34 C.F.R. § 644.32(b)
specify that an EOC grantee shall serve a minimum of 1,000 participants in each year.

The Talent Search and EOC programs hold grant competitions every four years. During the
2002-06 grant cycle, there were 474 Talent Search and 140 EOC grantees. During the 2006-10
grant cycle, there were 510 Talent Search and 135 EOC grantees.

The TRIO program is headed by the Director of Higher Education Preparation and Support
Service (Director). Between fiscal years (FY) 2003 and 2007 there were two different Directors.
Under TRIO, the College and University Preparation Team Leader (Team Leader) is responsible
for overseeing the Talent Search, EOC, and Upward Bound grant programs. Between FY 2003
and 2007 there were three different Team Leaders. The Team Leader supervises a staff of
program specialists who monitor the performance of the grantees. In 2007, 11 program
specialists were responsible for monitoring 1,754 grants, an average of 159 grants per program
specialist.

The Department of Education’s (Department) Handbook for the Discretionary Grant Process
states that the determining factor in awarding a continuation award for each year is whether the
grantee has made “substantial progress” in attaining the objectives of the grant as evidenced by
meeting the grant’s performance measures. TRIO program specialists are responsible for
determining whether a grantee has made substantial progress for that year and whether to
recommend continuation funding for the following year. Program specialists use analysis forms
to make their substantial progress determinations and base their determinations on the grantee’s
interim performance report during the first year of a grant cycle and annual performance reports
(APRs) for subsequent years.
Final Report
ED-OIG/I13I0007                                                                    Page 5 of 42

TRIO staff use data from the previous program year to determine continuation funding for the
following year:

             Year TRIO Determines          FY APR         FY Determination for
              Substantial Progress        Data Used       Continuation Funding
                      2003                2001-02                2003-04
                      2004                2002-03                2004-05
                      2005                2003-04                2005-06
                      2006                2004-05                2006-07
                      2007                2005-06                2007-08
                      2008                2006-07                2008-09
Final Report
ED-OIG/I13I0007                                                                      Page 6 of 42



                                INSPECTION RESULTS


The objective of our inspection was to determine whether OPE took appropriate action to address
Talent Search and EOC grantees that did not serve the number of participants they were funded
to serve in FY 2003-07. We found that the TRIO program has a weak control environment, and
as a result, OPE was unable to take appropriate action to address Talent Search and EOC
grantees that did not serve the number of participants they were funded to serve in FY 2003-07.

In response to our draft report, OPE did not concur with our recommendation to hold all grantees
accountable for not serving the number of participants they were funded to serve because OPE
interpreted our recommendation as a requirement to assess a financial penalty whenever a
grantee did not serve the number of participants it was funded to serve. OPE stated its general
practice has been to not impose financial penalties on grantees that do not meet their funded to
serve numbers. OPE did not provide any indication that it would change this practice. We do not
view reducing, discontinuing, or recovering funds from grantees that did not meet fundamental
performance requirements as a penalty.

It is TRIO management’s responsibility to establish policies on how it will determine substantial
progress and how it will hold grantees responsible. Although a program office can take other
non-financial actions to hold grantees accountable, if there are no financial consequences, the
effectiveness of these actions is minimized. There is a performance point at which a financial
consequence is appropriate or continuation funding is not warranted. TRIO management has not
defined this point and does not hold grantees accountable for failing to serve the required number
of students.

FINDING – OPE Did Not Take Appropriate Action to Address Talent Search and
          EOC Grantees that Did Not Serve the Number of Participants They
          Were Funded to Serve in Fiscal Years 2003-07

The Standards for Internal Control in the Federal Government, issued by the Government
Accountability Office (GAO Standards), state that a positive control environment is the
foundation for all other standards. Several key factors affect an organization’s control
environment, including the organization’s commitment to competence, delegation of authority
and responsibility, and human capital policies and practices.

We found that the TRIO program has a weak control environment because of weaknesses
identified regarding the three factors. The weaknesses in TRIO’s control environment affected
TRIO management’s ability to hold grantees accountable for upholding the terms of their grant
agreements. Specifically, we found that TRIO management:

   1. Did not have a well-defined, transparent process for reviewing grantee performance, and
   2. Did not appropriately oversee program specialists’ work.
Final Report
ED-OIG/I13I0007                                                                       Page 7 of 42

As a result of TRIO’s weak control environment, we found that TRIO management:

   3. Did not implement a process that appropriately held grantees accountable for not serving
      the number of participants they were funded to serve.

Issue No. 1 TRIO Management Did Not Have a Well-Defined, Transparent Process for
            Reviewing Grantee Performance

The GAO Standards state that human capital policies and practices are a critical control
environment factor. To achieve an effective control environment, GAO’s Internal Control
Management and Evaluation Tool recommends that management provide employees with
guidance to help ensure proper work flow and reduce misunderstandings. It also recommends
that supervisory personnel ensure that staff are aware of their duties and responsibilities and
management’s expectations.

We found that the TRIO program has a weak control environment because TRIO management:

   •   Did not provide guidance to program specialists on the criteria that constitute substantial
       progress in 2007,
   •   Did not provide program specialists with a well-defined process for determining
       grantees’ substantial progress in 2007, and
   •   Did not require the documentation to ensure a transparent review process in 2007.

We were unable to evaluate the TRIO program’s review process from 2002 to 2006 because
TRIO management could not fully describe the process and did not provide any documentation
related to the process during those five years.

TRIO management did not provide guidance to program specialists on the criteria that
constitute substantial progress in 2007
TRIO management did not provide guidance to program specialists specifying which criteria
grantees needed to meet in order to make substantial progress and also did not specify the criteria
of an unsuccessful grant. TRIO management stated that program specialists could use their
professional judgment to review a grantee’s performance; however, TRIO management did not
articulate the level of successful performance where a program specialist should determine that a
grantee has made substantial progress and the level of unacceptable performance where a
program specialist should initiate action against a grantee. The Director said that program
specialists would “know” what constituted a good grant and that they did not need a TRIO-
specific manual. TRIO management could not ensure the appropriateness of the program
specialists’ substantial progress determinations without specifying the criteria that constituted a
successful grant or specifying the threshold where program specialists should take action on an
unsuccessful grant.

TRIO management did not provide program specialists with a well-defined process for
determining grantees’ substantial progress in 2007
TRIO management could not clearly articulate its process for determining grantees’ substantial
progress in accomplishing grant objectives. At the start of the inspection, we asked TRIO
management to provide us with its policies and procedures for taking action to address grantees
Final Report
ED-OIG/I13I0007                                                                     Page 8 of 42

that did not meet their grant requirements. TRIO management provided us with a written
summary of its 2007 review process and a set of meeting notes from 2007 (2007 meeting notes)
outlining TRIO’s procedural steps for reviewing interim performance reports and APRs. TRIO
management stated that the meeting notes were from a 2007 meeting that provided instructions
to program specialists on how to review interim performance reports and APRs. The 2007
meeting notes were the only documented instructions TRIO management provided to program
specialists at the time of their grantee reviews. In the meeting notes, TRIO management
provided the following instructions to program specialists:

   •   For grantees serving 400 or more participants, determine that the grantee made
       substantial progress and recommend continuation funding,
   •   For grantees serving fewer than 400 participants, provide a copy of the substantial
       progress analysis form and other documentation to the senior program specialist for
       review with the Team Leader on a case-by-case basis.

In the 2007 meeting notes, TRIO management also instructed program specialists that in cases
where a grantee made substantial progress but did not spend its entire funding amount, the
program specialist should determine whether the grantee requested to “carryover” any amount
into the next program year and make a recommendation to the Team Leader. The 2007 meeting
notes stated that the Team Leader would decide whether to approve the carryover request or
reduce the continuation funding by the amount of the unexpended funds.

In our subsequent meetings and correspondence to clarify TRIO’s process, we found that TRIO’s
2007 meeting notes did not identify all of the informal steps that TRIO management stated were
used in determining substantial progress. There is no evidence that instructions on these
additional steps were provided to program specialists; therefore, there is no assurance that all
program specialists followed any of these steps during their review of grantee performance.

TRIO’s initial written summary of the 2007 process states that if the program specialist cannot
initially determine that a grantee has made substantial progress, the program specialist must
contact the grantee’s project director to obtain an updated status report. TRIO’s written
summary also states that if the grantee has met the benchmark based on the updated status report,
then the program specialist should verify substantial progress and recommend a continuation
award. These steps were not included in the 2007 meeting notes provided to program specialists.

In a meeting to clarify TRIO’s process, TRIO management stated that its benchmark for
reviewing grantees was usually 85 percent of the number of participants the grantee was funded
to serve (funded to serve number). TRIO management could not initially explain how the
benchmark of 400 participants in the 2007 meeting notes related to the 85 percent benchmark.
TRIO management stated that the 2007 benchmark appeared to be two-thirds (66 percent), since
400 is two-thirds of the Talent Search regulatory minimum of 600. When we asked if this two-
thirds benchmark also applied to EOC grantees, TRIO management stated it “must have been”
because TRIO would have used the same rationale for both programs.

At this point, we requested that TRIO management provide us with a written clarification of the
discrepancy in TRIO management’s explanation of its process for determining substantial
progress. TRIO management explained in its written clarification that the first benchmark for
reviewing grantees was 85 percent of the number of participants the grantee was funded to serve.
Final Report
ED-OIG/I13I0007                                                                                 Page 9 of 42

This benchmark was never mentioned in TRIO’s initial written explanation at the start of the
inspection. TRIO management explained that program specialists would determine that the
grantee made substantial progress if it served at least 85 percent of its funded to serve number
and would flag grantees that fell below the 85 percent mark. TRIO management explained that
program specialists contacted grantees that served below 85 percent for updated participant
numbers. If the grantee was still not serving 85 percent, the program specialist notified the Team
Leader who would make a decision regarding continuation funding. TRIO management
explained that at this point the two-thirds thresholds of 400 and 666 for the Talent Search and
EOC programs, respectively, would serve as an additional flag for the Team Leader and TRIO
management, who would then make a decision on the grantee’s continuation funding. It has
been TRIO management’s practice, however, not to establish financial consequences for grantees
that fail to meet their funded to serve numbers.

Since TRIO management did not have a well-defined process for determining grantees’
substantial progress, program specialists did not have the information and guidance necessary to
appropriately hold grantees accountable for upholding the terms of their grant agreements.

TRIO management did not require the documentation to ensure a transparent review process
in 2007
The review process lacked transparency because of insufficient documentation in cases where
the program specialist determined the grantee did not make substantial progress and provided the
grantee’s file to the Team Leader for further review. TRIO management stated that in cases
when program specialists determined that a grantee did not make substantial progress and should
not receive continuation funding, the program specialists were required to elevate the grantee’s
file to the Team Leader for further review. According to TRIO management, the Team Leader
and the Director would then decide if it was necessary to take action against the grantee and what
actions to take.

We found no documentation in the grant files for this step in the review process. Within our
random sample of 28 Talent Search and 15 EOC grantees that did not meet their funded to serve
number, 3 there were 6 Talent Search grantees and 1 EOC grantee where the program specialist
determined that the grantee did not make substantial progress for a given year and should not
receive continuation funding for the following year. For all seven of these grantees, there was no
documentation to support that the program specialist elevated the grant file to the Team Leader
or that the Team Leader and Director reviewed the grant files. For each of these grantees, it is
unclear which criteria, if any, the Team Leader and Director considered in making their funding
decisions. In addition, their final funding determinations were not documented in the grant files.
Our review found that TRIO awarded continuation funding to all seven of these grantees.




3
  We reviewed 17 Talent Search grantees from the 2002-06 grant cycle and 11 from the 2006-10 grant cycle. We
reviewed 10 EOC grantees from the 2002-06 grant cycle and four from the 2006-10 grant cycle. One EOC grantee
appeared in both the 2002-06 and 2006-10 grant cycles. We only reviewed data from the 2006-07 program year in
the 2006-10 grant cycle.
Final Report
ED-OIG/I13I0007                                                                     Page 10 of 42

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education

   1. Define the criteria for substantial progress and develop guidance for program specialists
      to follow when making substantial progress determinations.

   2. Provide program specialists with a well-defined process for determining grantees’
      substantial progress.

   3. Ensure that the review process for evaluating grantee performance is transparent by
      requiring sufficient documentation.

Issue No. 2 TRIO Management Did Not Appropriately Oversee Program Specialists’
            Work

The GAO Standards state that an organization’s commitment to competence is a key control
environment factor. To achieve an effective control environment, the Internal Control
Management and Evaluation Tool recommends that management analyze the tasks that need to
be performed for particular jobs and consider both the level of judgment required and the extent
of supervision necessary. It also recommends that performance appraisals be based on an
assessment of critical job factors.

The GAO Standards state that an organization’s delegation of authority and responsibility is
another key control environment factor. To achieve an effective control environment, the
Internal Control Management and Evaluation Tool recommends that there be an appropriate
balance between the delegation of authority at lower levels and the involvement of senior-level
personnel. It also recommends that management have effective procedures to monitor results.

We found that the TRIO program has a weak control environment because TRIO management:

   •   Did not adequately review program specialists’ determinations of grantees’ substantial
       progress,
   •   Did not ensure that program specialists adequately documented their grantee monitoring
       activities, and
   •   Did not ensure that performance agreements held program specialists responsible for
       appropriate substantial progress determinations.

TRIO management did not adequately review program specialists’ determinations of grantees’
substantial progress
TRIO management did not systematically review the accuracy or appropriateness of program
specialists’ substantial progress determinations. TRIO management stated that program
specialists elevated their determinations of substantial progress to the Team Leader in cases
where the program specialist had determined that the grantee did not make substantial progress
or if there was an issue that was out of the ordinary. The Team Leader stated that she did not
necessarily review the program specialists’ determinations of substantial progress for accuracy or
appropriate use of professional judgment if the specialist had determined that the grantee made
Final Report
ED-OIG/I13I0007                                                                       Page 11 of 42

substantial progress. In addition, TRIO management stated that senior program staff performed
a second level review for junior staff and new staff, but that senior program specialists were
trusted to perform their work accurately.

TRIO management also did not review substantial progress determinations to ensure the
consistency among program specialists. The Director stated that program specialists should have
followed up with grantees that were not performing in order to determine whether the grantees
were improving. In addition, TRIO management stated that when making substantial progress
determinations, program specialists should have contacted grantees that did not serve the number
of participants they were funded to serve up until the time that TRIO made the final decisions for
continuation funding.

In our random sample of 28 Talent Search and 15 EOC grantees, the extent to which program
specialists contacted grantees varied, and as a result, the information used by program specialists
to make their substantial progress determinations varied. For example, there were 15 Talent
Search grantees in the random sample that did not meet their funded to serve numbers in
program year 2002-03. Program specialists requested updated numbers for 3 of these grantees
and did not request updated numbers for the remaining 12 grantees. There were also 11 EOC
grantees in the random sample that did not meet their funded to serve numbers in program year
2002-03. Program specialists requested updated numbers for 3 of these grantees and did not
request updated numbers for the remaining 8 grantees. Whether a program specialist used
updated numbers could have affected the program specialists’ substantial progress
determinations.

Without supervisory review, TRIO management could not ensure the accuracy or the
appropriateness of each program specialist’s substantial progress determinations and could not
ensure consistency of the substantial progress determinations between program specialists.

TRIO management did not ensure that program specialists adequately documented their
grantee monitoring activities
We found that TRIO management did not ensure that program specialists adequately
documented all of their monitoring activities in the Talent Search and EOC official grant files.
As a result, the official grant files in our random sample did not contain complete substantial
progress determinations, documentation of any grantee problems elevated to the Team Leader,
and documentation of changes to grantees’ funded to serve numbers. In addition, the official
grant files did not always contain documentation of funding actions taken against grantees.

The Director stated that program specialists are the official file keepers for the Talent Search and
EOC programs and that the specialists have the responsibility of maintaining records in the grant
files. The Department’s Handbook for the Discretionary Grant Process specifies that program
staff must document all monitoring activity in each grantee’s official file and that, at a minimum,
documentation of monitoring activities must describe the following:

   •   Purpose of the monitoring activity,
   •   Methods and instruments used for monitoring a project,
   •   Documentation of all monitoring contacts,
Final Report
ED-OIG/I13I0007                                                                                     Page 12 of 42

    •   An assessment of the activities that have been completed and how much a grantee’s
        project scope and objectives have been met,
    •   Results of project activities observed in monitoring or reported by the grantee,
    •   Findings of grantee noncompliance with Federal legislative or regulatory requirements,
        and
    •   Corrective actions for each finding or specific recommendations made for project
        improvements that have been communicated to the grantee in writing, and the grantee’s
        responses.

Substantial progress determinations. Of the 28 Talent Search and 15 EOC grantees in our
random sample, 20 Talent Search and 12 EOC files were missing substantial progress analysis
forms for at least one year. For these grantees, we were unable to determine whether the
program specialists evaluated the grantees’ substantial progress for these years. There were also
9 Talent Search and 6 EOC grant files in our random sample that contained incomplete analysis
forms. In these cases, program specialists did not check the box to indicate whether they
determined that the grantee made substantial progress and whether they were recommending
continuation funding.

Changes to the grantees’ funded to serve number. We also found that program specialists did
not appropriately document changes to the number of participants grantees were funded to serve.
We identified 9 Talent Search and 4 EOC grantees in our random sample that had discrepancies
between the number of participants they were funded to serve as stated in OPE’s Funded Projects
Database 4 and the number program specialists used to determine substantial progress as stated in
the grantees’ interim performance reports or APRs. For these grantees, the grant files did not
contain documentation explaining or justifying a change to the number of participants the
grantees were funded to serve. Without documentation in the grant files to explain the
discrepancies, there is no assurance that program specialists used the correct numbers to
determine grantees’ substantial progress.

Funding actions against grantees. The Director informed us that the official grant files should
contain documentation of any action taken against grantees including when a program specialist
recommended reducing or stopping funding to grantees. We reviewed 16 Talent Search grantees
that TRIO management stated it took funding actions against in 2003 and 2004. 5 We found that
for 2 of the 16 grantees, the grant files did not contain any documentation demonstrating that
TRIO management had taken any funding action. In addition, for 10 of the remaining 14
grantees, the grant files did not contain documentation stating TRIO management’s rationale for
reducing the grantees’ funding.

TRIO management did not ensure that performance agreements held program specialists
responsible for appropriate substantial progress determinations
As stated above, the Internal Control Management and Evaluation Tool recommends that
performance appraisals be based on an assessment of critical job factors. TRIO management did
not hold program specialists accountable for accurately and appropriately determining grantees’

4
  TRIO listed each grantee’s funded to serve number in its Funded Projects Database. TRIO management provided
the information in this database to us for our review.
5
  We did not review grantees that TRIO took action against as a result of Inspector General audit findings or other
OPE internal audit issues.
Final Report
ED-OIG/I13I0007                                                                             Page 13 of 42

substantial progress. The performance agreements for program specialists did not specify the
need for accuracy when making substantial progress determinations. 6 The performance
agreements specified the procedural steps program specialists were expected to take when a
grantee did not make substantial progress, but the agreements did not address the program
specialists’ appropriate identification of grantees’ performance. Without this critical component
in the performance agreements, TRIO management’s ability to hold program specialists
accountable for making the appropriate substantial progress determinations is weakened.

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education

    4. Adequately review program specialists’ substantial progress determinations to ensure
       accuracy, consistency, and appropriateness of decisions.

    5. Ensure that program specialists adequately document their grantee monitoring activities
       in accordance with the Department’s Handbook for the Discretionary Grant Process.

    6. Ensure that performance appraisals hold TRIO staff accountable for appropriately and
       accurately determining grantees’ substantial progress.

Issue No. 3 TRIO Management Did Not Implement a Process That Appropriately Held
            Grantees Accountable for Not Serving the Number of Participants They Were
            Funded to Serve

As a result of weaknesses in TRIO’s control environment, TRIO management was unable to take
appropriate action to address Talent Search and EOC grantees that did not serve the number of
participants they were funded to serve in FY 2003-07. Specifically, TRIO management:

    •   Did not discontinue or reduce continuation funding when grantees reported that they
        failed to meet the number of participants they were funded to serve,
    •   Did not establish appropriate benchmarks for grantees that were funded to serve greater
        than the regulatory minimum,
    •   Used different sets of data to evaluate grantees,
    •   Took inconsistent action and based funding decisions primarily on grantees’ remaining
        funds at the end of a program year, and
    •   Did not take sufficient actions to address grantees that failed to meet the number of
        participants they were funded to serve.

As noted in the chart below, there were a large number of Talent Search and EOC grantees that
failed to meet their funded to serve number in at least one year during the two grant cycles we
reviewed:




6
  We reviewed the performance standards in the 2006-07 and 2007-08 performance agreements for TRIO program
staff.
Final Report
ED-OIG/I13I0007                                                                            Page 14 of 42

                                                                 Grantees that Failed to Meet their
     Grant                                                          Funded to Serve Number
     Cycle          Program                Total Grantees           Number            Percentage
     2002-06        Talent Search                474                   165               35%
     2002-06        EOC                          140                    55               39%
     2006-10*       Talent Search                510                   109               21%
     2006-10*       EOC                          135                    15               11%
     * We only reviewed data from the 2006-07 program year in the 2006-10 grant cycle.

TRIO did not consistently take action against grantees that failed to meet their funded to serve
number, and there is no assurance that grantees are being held accountable for upholding the
terms of their grant agreements with regards to serving the number of participants they were
funded to serve.

TRIO management did not discontinue or reduce continuation funding when grantees
reported that they failed to meet the number of participants they were funded to serve
When a grantee reported that it had not met its funded to serve number in the APR, TRIO
management instructed program specialists to contact the grantee to obtain the number of
participants it was currently serving in the ongoing program year. While the new data was used
to determine substantial progress, TRIO management did not discontinue funding, reduce the
amount of the continuation funding for the following year, or take any action to hold grantees
accountable for the reported failure to meet the prior year funded to serve number. As noted
above, it has been TRIO management’s practice not to establish financial consequences for
grantees that fail to meet their funded to serve numbers.

For example, Umpqua Community College, one of the Talent Search grantees in our random
sample, served only 423 participants during the 2002-03 program year but was funded to serve
600 participants. When TRIO conducted its review of 2002-03 APR data in April 2004, the
program specialist obtained new data from the grantee stating that it had served 548 participants
as of April 13, 2004. The program specialist determined that the grantee had made substantial
progress based on this updated number of participants; however, TRIO ignored the data stating
that the grantee had failed to meet its funded to serve number in 2002-03. TRIO provided the
grantee with an additional opportunity to make substantial progress and did not take any action
to address the grantee’s failure to meet its funded to serve number.

When determining substantial progress in a given year, TRIO also factored in the grantees’
projected progress towards meeting their funded to serve number in that program year. Grantees
did not necessarily have to meet their participant numbers as long as they claimed they were
making progress towards their funded to serve number. Grantees could be overambitious in
providing their participant numbers, allowing them to make substantial progress and to receive
continuation funding for the following year. For example, California State University-Long
Beach, one of the EOC grantees in our random sample, served only 509 participants during the
2002-03 program year but was funded to serve 1,000 participants. The program specialist
contacted the grantee during the review of 2002-03 APR data in April 2004 and noted that the
grantee was currently serving “almost 700 participants.” The program specialist did not make a
substantial progress determination on the analysis form. In a July 2004 e-mail, the grantee stated
that it had served 828 grantees and “should exceed the 1,000 number” by the end of the program
year. According to the final 2003-04 APR data, however, the grantee did not reach its funded to
Final Report
ED-OIG/I13I0007                                                                                      Page 15 of 42

serve number of 1,000 participants. The grantee received its full continuation funding for the
2004-05 program year. TRIO did not take any action to address the grantee’s failure to meet its
funded to serve number in 2002-03 and 2003-04.

By using new data when determining substantial progress and disregarding prior year data when
grantees did not meet their funded to serve numbers, TRIO management did not hold grantees
accountable for meeting their funded to serve number in every year of a grant. As a result, there
was no consequence for grantees failing to meet the terms of their grant agreements.

TRIO management did not establish appropriate benchmarks for grantees that were funded to
serve greater than the regulatory minimum
As stated above, in 2007, one of TRIO’s benchmarks for flagging a grantee for follow-up was
400 participants for the Talent Search program and 666 participants for the EOC program. The
benchmarks were two-thirds of the regulatory minimums for each program. The use of 400 and
666 as the benchmarks does not address grantees with funded to serve numbers greater than the
regulatory minimums in either program. Using the 400 and 666 benchmarks, grantees that were
funded to serve at the regulatory minimum should have been flagged when they served less than
two-thirds of their funded to serve number. Grantees that were funded to serve at greater than
the regulatory minimum, however, would not have been flagged at the same two-thirds
threshold. As a result of TRIO management using the 400 and 666 benchmarks, grantees that
were funded to serve greater numbers of participants were held to a lesser standard than those
who were funded at the regulatory minimum.

TRIO management used different sets of data to evaluate grantees
TRIO staff stated that grantees may have been penalized for not meeting their grant requirements
during the assessment of prior experience. 7 TRIO management instructed program specialists to
use the funded to serve number in the Funded Projects Database for prior experience assessment;
however, TRIO management instructed program specialists to use the funded to serve number
from the interim performance report or APR to determine substantial progress. By using data
from two different sources to evaluate grantees, TRIO did not appropriately or fairly hold
grantees responsible for their performance. As noted above, there were discrepancies between
the funded to serve numbers in the Funded Projects Database and the APRs.

TRIO management took inconsistent action and based funding decisions primarily on
grantees’ remaining funds at the end of a program year
TRIO’s process for evaluating grantee performance did not appropriately hold grantees
responsible for meeting the number of participants they were funded to serve. TRIO staff stated
that the primary reason for taking funding action against a grantee was whether it had a large
remaining balance at the end of a program year. The funding adjustments did not hold grantees
accountable because TRIO management did not recover expended funds and the actions resulted
in grantees having full funding in the subsequent year.




7
  During grant competitions, TRIO staff assess grantees’ prior grant performance and award “prior experience
points” to the grantees for meeting grant objectives. The prior experience points can add up to 15 additional points
to a grantee’s overall application score.
Final Report
ED-OIG/I13I0007                                                                                       Page 16 of 42

We reviewed 36 grantees that TRIO management stated that it took funding actions against
between 2003 and 2007. 8 Of these, 32 occurred in either 2003 or 2007, the first year of a
grantee’s project. TRIO staff stated that the primary reason TRIO took action against these
grantees was because the grantees had large remaining balances at the end of the program year.
TRIO staff stated a grantee having a large remaining balance was mainly a problem in the first
year of a grant.

In 2007, 109 Talent Search grantees failed to meet their funded to serve number. TRIO
management stated that it reduced the continuation funding for 19 grantees based on their large
available balances, and 17 of these grantees did not meet their funded to serve number. TRIO
did not take funding action on the remaining 92 Talent Search grantees that did not meet their
funded to serve number.

For the 32 grantees where TRIO management took funding actions in 2003 and 2007, TRIO
made funding adjustments on the grantees’ following year continuation funding, which allowed
grantees that had not spent all of their money during the program year to keep, or “carryover,” a
determined amount of money. In 2007, TRIO reduced the grantees’ funding by the difference
between their remaining unused funds and this carryover amount. The purpose of the funding
action was to adjust the grantees’ funding level to its original continuation award amount.
Therefore, grantees’ failure to serve the number of participants they were funded to serve in the
prior year did not adversely affect funding for the subsequent year.

In 2004, TRIO took funding actions against 4 grantees in addition to the 32 grantees from 2003
and 2007 noted above. We determined that TRIO made funding adjustments on two of these
grantees’ continuation awards because they failed to meet their funded to serve numbers and had
large remaining balances. There was no documentation in the grant files explaining why TRIO
made funding adjustments on the remaining two grantees’ continuation funding; however, we
determined that both grantees had large remaining balances at the end of the program year.

Since TRIO focused on the grantees’ large remaining balances, it did not adequately address
other grantees that had similarly failed to meet their funded to serve number. For example,
Mineral Area College, one of the grantees in our random sample of Talent Search grantees,
failed to meet its funded to serve number in the 2002-03 program year. TRIO did not take any
funding action on the grantee, even though the grantee had served the same number of
participants as another Talent Search grantee where TRIO management stated it took action
based on the grantee’s large available balance.

                                     Number            Actual        Remaining Balance at
                                    Funded to         Number          the End of Program           Action Taken
    Grantee                           Serve           Served             Year 2002-03                by TRIO
    Fresno City College                 600             276              $154,893.28                     Yes
    Mineral Area College                600             276               $37,560.00                     No


8
  TRIO stated that it took funding actions on 42 grantees between FY 2003 and 2007. TRIO stated that for 36 of
these grantees, it took funding action for reasons unrelated to Inspector General audits or other OPE internal audit
issues.
Final Report
ED-OIG/I13I0007                                                                      Page 17 of 42

The program specialist determined that Mineral Area College did not make substantial progress
and did not recommend continuation funding. TRIO management, however, made a subsequent
determination to provide full continuation funding to the grantee.

In other cases TRIO did not take consistent funding action against grantees with large remaining
balances. For example, TRIO reduced the University of Idaho’s EOC funding based on its
results from the 2002-03 program year, but TRIO did not take any funding action on the
University of Wisconsin-Milwaukee, one of the grantees in our random sample of EOC grantees.
This grantee, like the University of Idaho, failed to meet its funded to serve number and had a
large remaining balance.

                               Number         Actual      Remaining Balance at
                              Funded to      Number        the End of Program      Action Taken
  Grantee                       Serve        Served           Year 2002-03           by TRIO
  University of Idaho           1000           608             $68,459.73               Yes
  University of                 1000           602            $117,085.00               No
  Wisconsin-Milwaukee

TRIO management’s practice of not establishing financial consequences for grantees that fail to
meet their funded to serve numbers and of reducing continuation funding only on the basis of
unexpended amounts at the end of a program year encouraged grantees to spend their grant funds
without regard for their performance.

TRIO management did not take sufficient actions to address grantees that failed to meet the
number of participants they were funded to serve
TRIO did not take sufficient actions to address grantees that failed to meet their funded to serve
number. Within our random sample of 28 Talent Search and 15 EOC grantees that did not meet
their funded to serve number, TRIO did not take funding actions on any of the grantees. TRIO
also did not sufficiently take actions unrelated to funding to encourage the grantee to increase its
number of participants served. In our random sample, there was only one instance where the
program specialist informed the grantee that TRIO could potentially reduce its funding for the
following year since the grantee had not met its funded to serve number and had not expended all
of its funds.

As noted above, program specialists were instructed to follow up with grantees if the grantee had
not met its funded to serve number. Our review of the grant files found that this contact was
primarily related to program specialists (1) requesting updated data on the number of participants
the grantee had served and (2) explaining to the grantee that it could lose prior experience points
during the next competition. Other than the instance noted above, there is no evidence that
program specialists stressed to the grantees the importance of meeting their funded to serve
numbers. The requests for updated numbers served as a second chance for grantees to make
substantial progress and did not sufficiently address the grantees’ failure to meet their funded to
serve numbers.
Final Report
ED-OIG/I13I0007                                                                    Page 18 of 42

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education

   7. Hold all grantees accountable for not serving the number of participants they were funded
      to serve.

   8. Use the same data to evaluate grantees’ substantial progress and prior experience to
      ensure that grantees are evaluated consistently.

TRIO’s Control Environment

Given the problems we identified with the control environment in the Talent Search and EOC
programs and the importance of the control environment as the basis for all of an organization’s
internal controls, we recommend that the Assistant Secretary for Postsecondary Education

   9. Use GAO’s Internal Control Management and Evaluation Tool to perform a complete
      evaluation of the TRIO program’s internal controls to determine if there are other internal
      control weaknesses and implement a corrective action for any weaknesses identified.
Final Report
ED-OIG/I13I0007                                                                                       Page 19 of 42



                                   DEPARTMENT COMMENTS


On April 27, 2009, we provided OPE with a copy of our draft report for comment. OPE
provided its comments to the report on August 6, 2009.

OPE’s response to the draft report raised two serious concerns. First, OPE stated that its general
practice has been to not impose a financial penalty if a grantee does not meet the number of
participants it was funded to serve. OPE did not provide any indication that it would change this
practice. Second, OPE did not concur with Recommendation 7 to hold all grantees accountable
for not serving the number of participants they were funded to serve as OPE interpreted our
recommendation as a requirement to assess a financial penalty whenever a grantee did not serve
the number of participants it was funded to serve.

OPE misconstrued our recommendation. We recommended that OPE hold all grantees
accountable for not serving the number of participants they were funded to serve, but did not
specify that there should be a financial consequence for every grantee that does not meet its
funded to serve number. There is a level of performance, however, at which a financial
consequence is appropriate or continuation funding is not warranted. TRIO management has not
defined this point. We do not view reducing, discontinuing, or recovering funds from grantees
that did not meet fundamental performance requirements as a penalty. 9

The ability to reduce continuation funding or recover grant funds from grantees that do not meet
their goals and objectives is the most effective tool program offices have in protecting the
interests of taxpayers. Although a program office can take other non-financial actions to hold
grantees accountable, if there are no ultimate financial consequences, the effectiveness of these
actions is minimized. TRIO management must hold grantees accountable and must revise its
process to preserve the integrity of the Talent Search and EOC programs.

TRIO management’s practice of not establishing financial consequences for grantees that fail to
meet their funded to serve numbers sends the message that grant funds are gifts to the grantees
with no consequence for non-performance. We find this practice unacceptable.

Introduction
OPE Comments
OPE stated that the OIG interpreted appropriate action to mean that a grantee failing to meet its
funded numbers must be assessed a financial penalty. OPE stated that TRIO management did
not assign a financial penalty in this case because the practice conflicts with the principle of
substantial progress as stated in the Handbook for the Discretionary Grant Process and EDGAR
(34 C.F.R. § 75.253). OPE stated that “substantial progress” is an interim measure of a grantee’s
progress and the Handbook states, “what constitutes substantial progress will vary across
programs and projects.”


9
  A financial penalty refers to the imposition of a fine, which we did not recommend. Our draft report included one
reference to an OPE action that “did not penalize the grantee.” We have clarified that reference in the final report.
Final Report
ED-OIG/I13I0007                                                                      Page 20 of 42

OIG Response
As stated above, we do not view reducing, discontinuing, or recovering funds from grantees that
did not meet fundamental performance requirements as a penalty. The Handbook for the
Discretionary Grant Process states, “The program staff must recommend discontinuing funding
to grantees that have not demonstrated substantial progress toward meeting project goals and
objectives, unless the program official approves changes to the project that will enable the
grantee to make substantial progress in succeeding budget periods [see EDGAR § 75.253
(a)(2)].” OPE states that substantial progress is an interim measure; however, Talent Search and
EOC grants have annual objectives and requirements, rather than one primary goal at the end of
the four-year project period. Each year’s performance is independent of the next and failing to
serve the number of students a grantee was funded to serve will directly impact the grantee’s
success with regard to other grant objectives.

The regulations at 34 C.F.R. § 75.253 specify that the Secretary may make a continuation award
if:

   (1) The Congress has appropriated sufficient funds under the program;
   (2) The recipient has either—
       (i) Made substantial progress toward meeting the objectives in its approved
            application; or
       (ii) Obtained the Secretary's approval of changes in the project that—
            (A) Do not increase the cost of the grant; and
            (B) Enable the recipient to meet those objectives in succeeding budget periods;
   (3) The recipient has submitted all reports as required by Sec. 75.118, and
   (4) Continuation of the project is in the best interest of the Federal Government.

It is TRIO management’s responsibility to establish policies on how it will determine substantial
progress and how it will hold grantees responsible. TRIO management’s practice of not
establishing financial consequences for grantees that fail to meet goals and objectives is
inconsistent with the regulations at 34 C.F.R. § 75.253. TRIO management’s practice does not
ensure that all four of these requirements are met. If a grantee does not meet its goals and
objectives, then it is not in the best interest of the Federal Government to make a continuation
award. We saw no indication that this was taken into consideration when making continuation
funding decisions. If there are no financial consequences for grantees that fail to meet their goals
and objectives, the effectiveness of any other potential actions taken by a program office, such as
additional monitoring and site visits, is minimized.

OPE Comments
OPE took issue with our conclusion, “As a result of TRIO’s weak control environment, we found
that TRIO management did not implement a process that appropriately held grantees responsible
for not serving the number of participants they were funded to serve.” OPE stated that this
statement incorrectly implies that OPE’s control environment, as opposed to OPE’s general
practice, resulted in OPE not assigning a financial penalty to grantees for failing to serve the
funded number.

OIG Response
OPE’s practice of not establishing financial consequences for grantees results in grantees that are
not held accountable for failing to serve the number of participants they were funded to serve.
Final Report
ED-OIG/I13I0007                                                                       Page 21 of 42

The TRIO program’s control environment has resulted in grantees not being held accountable.
As stated in our report, TRIO management did not have a well-defined, transparent process for
reviewing grantee performance. We found that TRIO management did not take appropriate
action—financial or otherwise—to address Talent Search and EOC grantees that did not serve
the number of participants they were funded to serve.

OPE Comments
OPE stated that during the exit conference TRIO management suggested that we replace specific
terms used in the draft report for which meanings were not clear or precise in the context of the
issues discussed. OPE recommended that we not use the terms “transparent” or “transparency”
and “successful or unsuccessful grant.”

OIG Response
During the exit conference, we stated that we would clarify that the terms “transparent” and
“transparency” referred to the documentation of the TRIO program’s substantial progress
decisions. These changes were incorporated into the draft report. We also removed the term
“successful and unsuccessful grant” from one heading and our proposed recommendation;
however, this term is relevant to our finding and remains in the body of the report. The report is
clear in stating that TRIO management could not ensure the appropriateness of the program
specialists’ substantial progress determinations without specifying the criteria that constituted a
successful grant or specifying the threshold where program specialists should take action on an
unsuccessful grant.

Issue No. 1 TRIO Management Did Not Have a Well-Defined, Transparent Process for
            Reviewing Grantee Performance

OPE Comments
OPE generally concurred with Issue No. 1. OPE stated that the TRIO program’s 2007 meeting
notes provided specific guidance on the process and steps associated with each task, included the
initial benchmarks, and referenced staff instructions regarding the filing of documents and
reviews. OPE stated that in 2008 the TRIO program automated its process for certifying
substantial progress. OPE stated that the TRIO program used Excel spreadsheets with data
extracted from individual grantee APRs to calculate the extent to which grantees achieved their
outcome objectives. OPE stated that the spreadsheets include the calculations needed to
determine the level of accomplishment of each objective and the benchmarks set by TRIO
management, and completely eliminates manual mathematical calculations. OPE stated that the
automated process includes a detailed set of instructions for staff that covers a discussion of the
formulae used by the system, the benchmarks or targets, and other guidance to complement
specific spreadsheets.

OPE stated that in 2009 the TRIO program implemented a more formal written process which
includes an extensive seven-page form accompanied by detailed instructions specifying the steps
program specialists must follow to determine if a grantee is making substantial progress. OPE
adds that program specialists must now obtain and attach documentation to the form prior to
forwarding it to the Team Leader, and the form includes a section for the Team Leader and TRIO
Director to address situations in which the program specialist has noted concerns or cannot
certify substantial progress. OPE states that in this section, TRIO management can select from a
list of action options, such as a reduction of award, and monitoring options that the program
Final Report
ED-OIG/I13I0007                                                                        Page 22 of 42

specialist must conduct, such as specific periodic reports from the grantee, site visits, or routed
payments.

OPE stated that since 2007, TRIO management has significantly improved the internal control
environment as a result of these changes. OPE stated that Team Leaders can now identify which
substantial progress assessments will need further review, and TRIO management can readily
identify all of the assessments that identify projects with achievement rates falling below a
particular threshold and needing further review or action.

OIG Response
As noted in our report, the 2007 meeting notes did not identify all of the informal steps that
TRIO management stated were used in determining substantial progress. OPE’s response lists
changes in the TRIO program’s control activities; however, its control environment remains
unchanged. In light of TRIO management’s practice of not establishing financial consequences
for grantees that fail to meet their funded to serve number, TRIO management’s changes may
have no effect on its ability to hold grantees accountable. As noted above, if the TRIO program
does not reduce, discontinue, or recover grant funds, the effectiveness of any other potential
actions it takes is minimized.

Recommendation 1.1 (renumbered Recommendation 1)
Define the criteria for substantial progress and develop guidance for program specialists to
ensure appropriate funding decisions.

OPE Comments
OPE generally concurred with this recommendation. OPE stated that it is more appropriate to
use the term “substantial progress determinations” rather than “funding decisions” because the
new wording more accurately reflects the staff’s role in determining substantial progress. OPE
reiterated that TRIO management has made several improvements to its process and procedures
for determining substantial progress.

OIG Response
We have revised the recommendation based on OPE’s concerns. We have not evaluated the
effectiveness of the TRIO program’s new procedures; however, in light of TRIO management’s
practice of not establishing financial consequences for grantees that fail to meet their funded to
serve number, TRIO management’s changes may have no effect on its ability to hold grantees
accountable.

Recommendation 1.2 (renumbered Recommendation 2)
Provide program specialists with a well-defined process for determining grantees’
substantial progress.

OPE Comments
OPE concurred with this recommendation. OPE stated that in its corrective action plan it will
provide a well-defined process for reviewing grantee performance, but stated that this process for
determining substantial progress must allow TRIO management and staff to use professional
judgment when it may be in the best interest of the program to continue a project that has not met
the established criteria for determining substantial progress. OPE stated that in these cases,
TRIO management and staff will fully document the reasons for their decisions in the official
Final Report
ED-OIG/I13I0007                                                                       Page 23 of 42

grant file. OPE provided two hypothetical examples demonstrating the importance of
professional judgment.

OIG Response
No changes have been made to this recommendation. We agree that the use of professional
judgment must be accompanied by documented justification for decisions. As noted in our
report, TRIO management did not ensure that program specialists adequately documented all of
their monitoring activities in the official grant files. We did not see any evidence of documented
justification for decisions in our file review similar to the hypothetical situations noted in OPE’s
comments in response to our draft report.

Recommendation 1.3 (renumbered Recommendation 3)
Ensure that the review process for evaluating grantee performance is transparent by
requiring sufficient documentation.

OPE Comments
OPE concurred in part with this recommendation. OPE suggested rewording the
recommendation by replacing the term “transparent” with a more clearly-defined term.

OIG Response
No changes have been made to this recommendation. As noted above, “transparent” refers to the
documentation of the TRIO program’s substantial progress decisions.

Issue No. 2 TRIO Management Did Not Appropriately Oversee Program Specialists’
            Work

OPE Comments
OPE concurred with our finding that TRIO management did not adequately review program
specialists’ determinations of grantees’ substantial progress. OPE stated that in its corrective
action plan, it will identify a new approach to review substantial progress determinations. OPE
stated that during the exit conference, the OIG understood that due to the number of grants, it
may not be feasible for the Team Leader to conduct second reviews of all staff substantial
progress determinations and acknowledged that sampling may be necessary.

OPE reiterated that in 2008 TRIO management implemented an automated process to certify
substantial progress. OPE stated that this automation replaces all manual calculations and
associated human error, greatly enhancing the Team Leader’s ability to systematically review
staff work and identify those grantees requiring additional monitoring and assistance.

OIG Response
It is TRIO’s responsibility to determine how the Team Leader should review program
specialists’ determinations of grantees’ substantial progress. We agree that supervisory review
may involve taking a sample of program specialists’ substantial progress determinations. In
addition, our concern in this section was not with calculation errors on the part of program
specialists, but with the consistency of how program specialists determined substantial progress.
Final Report
ED-OIG/I13I0007                                                                      Page 24 of 42

OPE Comments
OPE concurred with our finding that TRIO management did not ensure that program specialists
adequately documented their grantee monitoring activities. OPE stated that although TRIO
management provided guidance for staff, not all staff adequately documented the monitoring
activities cited in the report. OPE added that in addition to ensuring that staff document these
actions, TRIO management, to the extent possible, will also ensure that staff carry out the
monitoring activities stated in the Handbook that apply to the administration of the programs.
OPE reiterated that TRIO program specialists have some of the highest grant workloads in any
OPE service area.

OIG Response
No changes have been made to the finding. We note that documentation alone, will not correct
the control environment problems in light of the TRIO program’s practice of not establishing
financial consequences for grantees that do not serve the number of participants they were
funded to serve.

OPE Comments
OPE concurred in part with our finding that TRIO management did not ensure that performance
agreements held program specialists responsible for appropriate substantial progress
determinations. OPE stated that TRIO management will ensure that performance agreements
hold staff accountable for following the prescribed written guidance and procedures for making
substantial progress determinations and for documenting decisions based on professional
judgment. OPE stated that TRIO management would modify staff performance agreements to
reflect these requirements, though it did not agree with the use of the term “appropriate,” since
the term is subjective and open to interpretation. OPE stated that the procedures will require the
Team Leader and/or TRIO Director to approve recommendations based on professional
judgment.

OIG Response
The term “appropriate” does not refer to whether a program specialist’s professional judgment is
accurate or inaccurate. Program specialists need to make appropriate substantial progress
determinations based on the accurate use of grantee data. These determinations must be
adequately justified and documented in the official grant file. Program specialists cannot make
appropriate decisions without guidance from management on when action must be taken and
what the appropriate action should be

Recommendation 2.1 (renumbered Recommendation 4)
Adequately review program specialists’ substantial progress determinations to ensure
accuracy, consistency, and appropriateness of decisions.

OPE Comments
OPE concurred with this recommendation. OPE stated that in 2009 TRIO management will
identify an approach to review staff substantial progress determinations that balances the need to
increase oversight with time constraints and available resources.

OIG Response
No changes have been made to this recommendation.
Final Report
ED-OIG/I13I0007                                                                       Page 25 of 42

Recommendation 2.2 (renumbered Recommendation 5)
Ensure that program specialists adequately document their grantee monitoring activities in
accordance with the Department’s Handbook for the Discretionary Grant Process.

OPE Comments
OPE concurred with this recommendation. OPE stated that TRIO staff will document per
written guidance their substantial progress determinations and monitoring activities. OPE stated
that in addition to ensuring that staff document substantial progress determinations, changes to
the number of students served, and funding actions; TRIO management will also ensure that the
monitoring activities stated in the Handbook for the Discretionary Grant Process that are
applicable to the administration of these TRIO programs are carried out to the best of their
ability.

OIG Response
No changes have been made to this recommendation.

Recommendation 2.3 (renumbered Recommendation 6)
Ensure that performance appraisals hold TRIO staff accountable for appropriately and
accurately determining grantees’ substantial progress.

OPE Comments
OPE concurred in part with this recommendation. OPE stated that TRIO management will
modify staff performance agreements to hold staff accountable for following the prescribed
written guidance and procedures for making substantial progress determinations and for
documenting situations in which professional judgment is used. OPE reiterated that it does not
agree with the use of the term “appropriate” in this context, since the term is subjective and open
to interpretation.

OIG Response
No changes have been made to this recommendation. As noted above, the term “appropriate”
does not refer to whether a program specialist’s professional judgment is accurate or inaccurate.
Program specialists need to make appropriate substantial progress determinations based on the
accurate use of grantee data. These determinations must be adequately justified and documented
in the official grant file.

Issue No. 3    TRIO Management Did Not Implement a Process That Appropriately Held
               Grantees Accountable for Not Serving the Number of Participants They
               Were Funded to Serve

OPE Comments
OPE did not concur with our finding that TRIO management did not implement a process that
appropriately held grantees responsible for not serving the number of participants they were
funded to serve. OPE stated that this finding suggests that the TRIO program should reduce a
grantee’s continuation funding if the grantee fails to serve the number of participants the project
was funded to serve. OPE stated that this issue and the subsequent recommendations are
inconsistent with the regulations at 34 C.F.R. § 75.253, the Handbook for the Discretionary
Grant Process, and established processes and procedures for OPE grants management. OPE
stated that a grantee failing to serve the number of participants it was funded to serve does not
Final Report
ED-OIG/I13I0007                                                                        Page 26 of 42

equate with misuse of program funds or lack of substantial progress. OPE stated that since the
funded number is one of several project objectives, the TRIO program’s policy dictates using the
funded number as only one indicator of substantial progress. OPE stated that if grantees serve 85
percent or more of their funded numbers and no other problems have been identified, the
program specialist will certify that the grantee is making substantial progress; if grantees are
serving less than 85 percent, the grantee may still receive a continuation award if the program
specialist uses professional judgment to determine the best interests of the program. OPE stated
that these policies are consistent with the concept of substantial progress that governs decisions
in awarding continuation funding for discretionary grantees.

OIG Response
As noted above, the Handbook for the Discretionary Grant Process states, “The program staff
must recommend discontinuing funding to grantees that have not demonstrated substantial
progress toward meeting project goals and objectives, unless the program official approves
changes to the project that will enable the grantee to make substantial progress in succeeding
budget periods [see EDGAR § 75.253 (a)(2)].” The regulations at 34 C.F.R. § 75.253 specify
that the Secretary may make a continuation award if:

   (1) The Congress has appropriated sufficient funds under the program;
   (2) The recipient has either—
       (i) Made substantial progress toward meeting the objectives in its approved
             application; or
       (ii) Obtained the Secretary's approval of changes in the project that—
            (A) Do not increase the cost of the grant; and
            (B) Enable the recipient to meet those objectives in succeeding budget periods;
   (3) The recipient has submitted all reports as required by Sec. 75.118, and
   (4) Continuation of the project is in the best interest of the Federal Government.

It is TRIO management’s responsibility to establish policies on how it will determine substantial
progress and how it will hold grantees responsible. TRIO management’s practice of not
establishing financial consequences for grantees that fail to meet goals and objectives is
inconsistent with the regulations at 34 C.F.R. § 75.253 and does not ensure that all four of these
requirements are met. We saw no indication that this was taken into consideration when making
continuation funding decisions. If there are no financial consequences for grantees that fail to
meet their goals and objectives, the effectiveness of any other potential actions taken by a
program office, such as additional monitoring and site visits, is minimized. The results of the
other objectives noted by OPE are a direct outgrowth of the number of students served. When a
grantee fails to serve the number it was funded to serve, the other objectives will, by necessity,
be negatively impacted. The benchmarks noted by OPE may not be effective given TRIO
management’s practice of not establishing financial consequences for grantees that fail to meet
their funded to serve numbers.

OPE Comments
OPE concurred in part with our finding that TRIO management did not establish appropriate
benchmarks for grantees that were funded to serve greater than the regulatory minimum. OPE
stated that this statement is accurate for fiscal years 2003-07, but since 2007, it has established
benchmarks for grantees that were funded to serve a number of participants greater than the
Final Report
ED-OIG/I13I0007                                                                      Page 27 of 42

regulatory minimum. OPE stated that for 2008 and 2009, TRIO management has established a
benchmark at 85 percent of the funded number for all grantees.

OIG Response
No changes have been made to this finding; however, we acknowledge that TRIO management
has updated its procedures for 2008 and 2009. We note that benchmarks may not be effective
given TRIO management’s practice of not establishing financial consequences for grantees that
fail to serve the number they were funded to serve. As noted in our report, TRIO management
also did not take sufficient non-financial actions against grantees that failed to meet the number
of participants they were funded to serve.

OPE Comments
OPE concurred with our finding that TRIO management used different sets of data to evaluate
grantees. OPE stated that it is TRIO management’s policy to use interim performance report
data to make substantial progress determinations for grantees that are in the first year of
operation because they have not submitted the APR by the time the continuation grant is
awarded. OPE stated that the APR data are used for determining prior experience points for
those same first-year projects.

OIG Response
No changes have been made to the finding. Our finding did not address TRIO management’s
use of interim performance reports and APRs from one year to the next. This section stated that
TRIO management instructed program specialists to use the funded to serve number in the
Funded Projects Database for prior experience assessment, but also instructed the program
specialists to use the funded to serve number from the interim performance report or APR to
determine substantial progress. As noted in our report, there were discrepancies between the
funded to serve numbers in the Funded Projects Database used for assessing prior experience and
the APRs used for determining substantial progress.

OPE Comments
OPE concurred with our finding that TRIO management took inconsistent action and based
funding decisions primarily on grantees’ remaining funds at the end of a program year. OPE
stated that TRIO management’s use of an automated process will allow for the identification of
potential inconsistencies during the substantial progress review. OPE stated that TRIO
management will address this problem by strengthening written guidance for specialists and by
modifying performance agreements. OPE stated that even with the efforts to strengthen internal
controls and increase efficiencies through the use of automation, extremely high grant workloads
impact the extent to which the improved processes can result in increased efficiency and
effectiveness.

OIG Response
OPE’s comments do not address our finding that TRIO management based funding decisions
primarily on grantees’ remaining funds at the end of a program year. As stated above, if there
are no financial consequences for grantees that fail to meet their goals and objectives, the
effectiveness of any other potential actions is minimized. The TRIO program’s actions support
the conclusion that it does not hold grantees accountable. We clarified the finding to explain the
nature of TRIO management’s funding adjustments.
Final Report
ED-OIG/I13I0007                                                                       Page 28 of 42

OPE Comments
OPE concurred with our finding that TRIO management did not take sufficient actions to address
grantees that failed to meet the number of participants they were funded to serve. OPE stated
that in some situations TRIO staff did not take sufficient actions with regard to grantees failing to
meet the number of participants they were funded to serve. OPE stated that TRIO management's
policy allows for several actions that might be taken when a grantee fails to serve the funded
number of participants. OPE stated that in some instances, a grantee may receive a reduction in
funding, and in other instances, a grantee may receive various forms of monitoring to reinforce
the importance of meeting their funded numbers and to periodically assess the project’s progress.

OIG Response
No changes have been made to the finding. As noted in the report, we did not find that TRIO
management took sufficient action against grantees that failed to meet the number of participants
they were funded to serve. TRIO management based funding decisions primarily on grantees’
remaining funds at the end of a program year. In our random sample of 28 Talent Search and 15
EOC grantees that did not meet their funded to serve number, there was only one instance where
the program specialist informed the grantee that TRIO could potentially reduce its funding for
the following year since the grantee had not met its funded to serve number and had not
expended all of its funds.

Recommendation 3.1 (renumbered Recommendation 7)
Hold all grantees accountable for not serving the number of participants they were funded
to serve.

OPE Comments
OPE did not concur with this recommendation. OPE stated that it appears that the OIG interprets
appropriate action to mean that a grantee failing to meet its funded numbers must be assessed a
financial penalty. OPE stated that TRIO management does not reduce a continuation award each
time a grantee fails to meet the number of participants they were funded to serve because that
practice conflicts with the principle of substantial progress as stated in the Handbook for
Discretionary Grants and EDGAR (34 C.F.R. § 75.253). OPE stated that there are other ways
that a grantee can be held accountable, such as losing prior experience points in the next grant
competition, which would likely impact its continued funding.

OIG Response
No changes have been made to this recommendation. As stated above, OPE has misconstrued
our recommendation. It is TRIO management’s responsibility to establish policies on how it will
determine substantial progress and how it will hold grantees responsible. TRIO grants have
annual goals and objectives that do not build up to final grant completion. The goals and
objectives are standalone for each year. This is how the TRIO program can award prior
experience points for each year rather than for the entire grant period. TRIO management’s
practice of reducing continuation funding only when carryover funds are available and its
practice of not establishing financial consequences encourages grantees to spend all of their
funds regardless of performance. We did not recommend that all grantees failing to meet their
funded numbers must be assessed a financial penalty. There is a performance point at which a
financial consequence is appropriate or continuation funding is not warranted. TRIO
management has not defined this point and does not hold grantees accountable. As a result of
TRIO management’s practice of not establishing financial consequences for grantees that fail to
Final Report
ED-OIG/I13I0007                                                                       Page 29 of 42

meet goals and objectives, the effectiveness of any other potential actions taken by a program
office is minimized.

OPE states that the TRIO program can hold grantees accountable through the loss of prior
experience points. But as OPE notes, these points are awarded in the next grant competition, and
not the current grant cycle. When a grantee does not serve the number it was funded to serve,
students who could have benefited from the services are hurt. Grantees are encouraged to spend
all of their grant funds without regard to whether they have served the students they agreed to
serve.

Recommendation 3.2 (renumbered Recommendation 8)
Use the same data to evaluate grantees’ substantial progress and prior experience to ensure
that grantees are evaluated consistently.

OPE Comments
OPE did not concur with this recommendation. OPE stated that comprehensive program data are
not always available and TRIO management’s policy is to use interim performance report data to
make substantial progress determinations for grantees in their first year of operation. OPE stated
that these grantees have not submitted the APR by the time the continuation grant is awarded.
OPE stated that the TRIO program does use the APR data to determine prior experience points
for those same first-year projects.

OIG Response
No changes have been made to the recommendation. As stated above, our finding did not
address TRIO management’s use of interim performance reports and APRs from one year to the
next. The finding stated that TRIO management instructed program specialists to use the funded
to serve number in the Funded Projects Database for prior experience assessment, but also
instructed the program specialists to use the funded to serve number from the interim
performance report or APR to determine substantial progress. Our recommendation is for TRIO
management to use the same data to evaluate grantees’ substantial progress and prior experience
so that there is consistency in the evaluation.

Recommendation 4.1 (renumbered Recommendation 9)
Use GAO’s Internal Control Management and Evaluation Tool to perform a complete
evaluation of the TRIO program’s internal controls to determine if there are other internal
control weaknesses and implement a corrective action for any weaknesses identified.

OPE Comments
OPE did not concur with this recommendation. OPE acknowledged the need to strengthen the
TRIO program’s control environment regarding the administration of the substantial progress
determinations for the Talent Search and EOC programs and stated that it has already
implemented tighter controls. OPE stated that the Internal Control Management and Evaluation
Tool does not appear to be an appropriate tool to address problems identified in the inspection
and that it seems to require an agency-level evaluation, which is beyond the scope of the
inspection. OPE stated that it will examine the evaluation tool to see if it has utility for the TRIO
program’s needed process improvements to address those weaknesses already identified by the
OIG.
Final Report
ED-OIG/I13I0007                                                                 Page 30 of 42

OIG Response
No changes have been made to this recommendation. The internal control weaknesses identified
in our inspection concerned the TRIO program. The evaluation should be a review of the entire
TRIO program given the significant internal control weaknesses identified with the control
environment. A complete assessment of internal controls is not likely to have any impact or
result in improvement as long as the organizational culture remains the same.
Final Report
ED-OIG/I13I0007                                                                    Page 31 of 42



                  OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of our inspection was to determine whether OPE took appropriate action to address
Talent Search and EOC grantees that did not serve the number of participants they were funded
to serve in FY 2003-07.

We began our fieldwork on July 22, 2008 and conducted an exit conference on March 24, 2009.

We reviewed Talent Search and EOC regulations and interviewed OPE staff in the TRIO
program. We reviewed the Department’s Handbook for the Discretionary Grant Process. We
also reviewed performance standards in the 2006-07 and 2007-08 performance agreements for
TRIO program staff. To determine relevant and appropriate internal control factors, we
reviewed GAO’s Standards for Internal Control in the Federal Government and Internal Control
Management and Evaluation Tool.

Review of OPE’s process for reviewing grantee performance. To determine TRIO’s process for
reviewing grantee performance, we reviewed TRIO management’s written summary of its 2007
review process. We also reviewed TRIO management’s meeting notes from 2007 outlining the
procedural steps for reviewing grantee performance. We interviewed TRIO management to
resolve discrepancies in its explanation of the review process. We also prepared a written
summary of our understanding of TRIO’s process and provided TRIO management with the
opportunity to revise our description.

Review of a random sample of grantees. To answer our objective, we reviewed the official
grant files for a random sample of grantees that did not serve the number of participants they
were funded to serve between FY 2003 and 2007. For each grant file, we reviewed the grantee’s
interim performance reports, the grantee’s APRs, the program specialists’ analysis forms, the
Department’s grant award notification forms, and related correspondence.

The sample population consisted of grantees that did not meet their funded to serve number in at
least one year. To ensure that we represented grantees in both grant cycles covered in our scope,
we selected separate samples from both the 2002-06 and 2006-10 grant cycles. We only
reviewed data from the 2006-07 program year in the 2006-10 grant cycle.

To determine the population of our sample, we used data provided by OPE staff. OPE provided
2002-03, 2003-04, and 2004-05 program year data from its spreadsheets used to calculate prior
experience points for the 2006 Talent Search and EOC grant competitions and a separate set of
data for the 2005-06 and 2006-07 program years. OPE based this data on its Funded Projects
Database and APRs. OPE failed to include one grantee, Hall Neighborhood House, in the data it
provided us; therefore, this grantee was not in our sample population. As stated in the results
above, we also identified discrepancies between the number of participants grantees were funded
to serve as stated in OPE’s Funded Projects Database and the number program specialists used to
determine substantial progress as stated in the grantees’ interim performance reports or APRs.
Final Report
ED-OIG/I13I0007                                                                     Page 32 of 42

For the 2002-06 grant cycle, 165 out of 474 Talent Search grantees and 55 out of 140 EOC
grantees did not meet their funded to serve number for at least one year. For the 2006-07
program year, 109 out of 510 Talent Search grantees and 15 out of 135 EOC grantees did not
meet their funded to serve number for at least one year.

We initially generated a sample of 20 percent of the grantees in each program and grant cycle
that did not meet their funded to serve number for at least one year. Since the 2006-07 EOC
population contained only 15 grantees, we generated a random sample of 5 grantees. We
reviewed half of the grantees (10 percent) in the 2002-06 Talent Search, 2002-06 EOC, and
2006-07 Talent Search samples and all five grantees in the 2006-07 EOC sample to determine
whether OPE took any action to address grantees that did not meet their funded to serve number.
We did not identify any actions in the 2002-06 Talent Search, 2006-10 Talent Search, and 2006-
10 EOC samples. We identified one exception in the 2002-06 EOC sample and reviewed the
entire 20 percent generated for that sample.

In total, we reviewed 17 Talent Search grantees from the 2002-06 grant cycle and 11 from the
2006-10 grant cycle. We reviewed 11 EOC grantees from the 2002-06 grant cycle and 5 from
the 2006-10 grant cycle. One EOC grantee appeared in both the 2002-06 and 2006-10 grant
cycles. We accessed the Department’s Grant Administration and Payment System (GAPS) to
determine whether the Department took any funding action on these grantees between FY 2003
and 2007.

Review of grantees from OPE’s list of funding actions. TRIO management stated that it took
funding actions on 42 Talent Search and EOC grantees between FY 2003 and 2007. None of
these grantees were selected in our random sample. We reviewed the 36 grantees that TRIO
management stated that it took funding actions against for reasons unrelated to Inspector General
audits or other OPE internal audit issues. OPE took these funding actions in 2003, 2004, and
2007. To determine the nature of the funding action, we reviewed the official grant files for
grantees that OPE took funding action against in 2003 and 2004. For each grant file, we
reviewed the grantee’s interim performance reports, the grantee’s APRs, the program specialists’
analysis forms, the Department’s grant award notification forms, and related correspondence.
After our review of the 2003 and 2004 files, TRIO management stated its primary reason for
taking funding action against a grantee in 2007 was whether it had a large remaining balance at
the end of a program year; therefore, we did not review the grantees that OPE took funding
action against in 2007. We accessed GAPS to confirm the Department’s funding actions.

Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.
Final Report
ED-OIG/I13I0007   Page 33 of 42
Final Report
ED-OIG/I13I0007   Page 34 of 42
Final Report
ED-OIG/I13I0007   Page 35 of 42
Final Report
ED-OIG/I13I0007   Page 36 of 42
Final Report
ED-OIG/I13I0007   Page 37 of 42
Final Report
ED-OIG/I13I0007   Page 38 of 42
Final Report
ED-OIG/I13I0007   Page 39 of 42
Final Report
ED-OIG/I13I0007   Page 40 of 42
Final Report
ED-OIG/I13I0007   Page 41 of 42
Final Report
ED-OIG/I13I0007   Page 42 of 42
